HHS/OIG, Audit - "Review of Medicare Bad Debts At The University of California, San Francisco Medical Center," (A-09-02-000057)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Bad Debts At The University of California, San Francisco
Medical Center," (A-09-02-00057)
July 8, 2002
Complete Text of Report is available in PDF format
(3.85 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review of inpatient Medicare bad debts
at the University of California, San Francisco Medical Center (the Hospital)
was to determine if Medicare bad debts claimed by the Hospital were in compliance
with the Medicare reimbursement criteria.  Our review focused on inpatient
Medicare bad debts claimed by the Hospital totaling $2,993,138 during the Hospitals
cost report period ending March 31, 2000.  Of the $2,993,138 bad debts
claimed, a net amount of $2,432,883 did not meet the Medicare reimbursement
requirements.  The Hospital concurred with our findings and recommendations.